      n ation a l a rchi v es
office of inspector gener al

semiannual report
    to congress
 OctOber 1, 2011 to march 31, 2012
                                    FOREWORD
On November 2ath 2011 President Obama issued a Presidential Memorandum titled Managing
Government Records. The President stated "Records transferred to the National Archives and
Records Administration (NARA) provide the prism through which future generations will
understand and learn from our actions and decisions." Through audits, investigations and
evaluations the NARA Office of Inspector General (OIG) is uniquely positioned to assess and
support NARA 's capacity to serve the American public by protecting our nation's physical and
electronic records, and provide them with appropriate security and accessibility.

We continue evaluating the functionality and viability of the Electronic Records Archives
(ERA). ERA systems development efforts have formally concluded and transitioned to an
Operations and Maintenance phase. I look back on my initial ERA meeting notes dated
December 3,2001 in which I wrote ERA must "provide our customers timely and reliable
access" to electronic holdings. Regretfully, I must conclude this objective was not achieved.
With limited exception ERA is a system that does not afford the public ready, timely and
affordable access to electronic records. Indeed, ERA officials informed us the experience for
researchers seeking access to electronic records "is parallel to the process researchers use to get
any records in physical formats." Figuratively speaking, researchers will still have to get paper
cuts when attempting to access electronic records which will be flowing to NARA at an
exponential rate. Furthermore, ERA lacks contingency planning and back-up, and is reliant
upon the legacy systems which it was to replace.

We also released two audit reports on the management of records at the Washington National
Records Center (WNRC), where management controls were inadequate to safeguard and
adequately secure records. The environment at WNRC was one in which records cannot be
properly accountedfor, processed, disposed of or adequately safeguarded. This condition
placed records at risk ofpossible loss, damage, compromise or unauthorized disclosure.
Management responded to these reports in a positive and constructive manner, and I am
optimistic constructive change is occurring.

Work performed by OIG investigators resulted in subjects pleading guilty in two major cases. In
one case a former NARA employee pleaded to the embezzlement of government property. This
case has garnered significant national attention, and has to date resulted in the recovery of
thousands of historic acetate records alienated from NARA's holdings. In the second case,
NARA agents working jointly with the FBI were able to recover approximately 10,000 records
stolen from numerous cultural and historic institutions including the Franklin Delano
Roosevelt Presidential Library. Both subjects in this case have pleaded guilty and await
sentencing.

In closing, I'd like to thank my stafffor the outstanding work accomplished in this period. In
this era in which Federal workers have become to some the object of derision, lfind the OIG
staff to be talented, dedicated, hard-working and responsible individuals who merit my respect.


                                              /~~   Paul Brachfe/ C-
                                                    Inspector General
SEMIANNUAL REPORT TO CONGRESS
October 1, 2011 to March 31, 2012                                                    Page;
TABLE OF CONTENTS

Foreword......................................................................................................................................... i


Executive Summary .......................................................................................................................2


Introduction ...................................................................................................................................5


Activities .........................................................................................................................................7


Audits ...........................................................................................................................................10


Investigations................................................................................................................................17


Top Ten Management Challenges .............................................................................................24


Reporting Requirements ............................................................................................................29





 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1

October 1, 2011 to March 31, 2012

EXECUTIVE SUMMARY

This is the 47th Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of NARA’s top ten management challenges is included as
well. The highlights of our major functions are summarized below.

                                    Audits and Reports
The Audit Division continued to examine the security of NARA’s Information Technology (IT)
systems, the development of NARA’s Electronic Records Archives (ERA) system, and assess
the economy and efficiency of NARA’s programs and operations. During the reporting period,
we issued the following audit reports and management letters.

Information Technology (IT)

   •	 Network Outage Affecting NARA’s Operations. Two separate issues were discovered
      as a result of a 32-hour network outage in September 2011. First, NARA did not have a
      failover connection to restore Internet and other services within a timely manner.
      Second, NARA’s continuity of operations (COOP) site may not be able to independently
      operate if there was an incident at Archives II. In response to our management letter, the
      Archivist agreed a second diversely routed access circuit to Archives II would have
      averted the outage, and NARA is investigating the cost and feasibility of such a solution.
      The Archivist also stated, after our letter was issued, a full failover test of NARANet
      servers and storage area network to the COOP site was conducted, and NARA now has a
      higher level of confidence services can be independently restored to the alternate site.
      (OIG Management Letter #12-01, dated October 13, 2011.)

Electronic Records Archives (ERA)

   •	 Access to Records in the Base ERA System. At the end of development, the ERA
       system was neither functional nor operational in meeting the basic needs and
       requirements of users. Records ready for public access cannot be readily identified,
       located and presented to researchers. The vast majority of unstructured data files (word
       processing documents, emails, etc.) in Base ERA will not be transferred to NARA’s
       search program (OPA). For those records not in the search program, an archivist will
       have to intervene to search for a researcher, and the researcher will be billed at least $13
       per file they request. All records from Base ERA will be delivered in their native format,
       meaning if the file is a Lotus Notes email, the researcher must have their own copy of the
       Lotus Notes program or have some other way of opening the file. Further, NARA’s
       outside communications regarding ERA did not reflect the state of the program, and
       needed to be updated. NARA is currently prioritizing additional work to be performed
       on ERA, and is also working to enhance program communications. (OIG Management
       Letter #12-06, dated February 21, 2012)

   •	 NARA’s Reliance on Legacy Systems to Meet Electronic Records Mission Needs.
      As we reported previously, 58 percent of ERA’s original requirements were no longer


SEMIANNUAL REPORT TO CONGRESS                                                             Page 2
October 1, 2011 to March 31, 2012
EXECUTIVE SUMMARY

       planned to be included in the system at the end of the development phase. As a result,
       NARA is now spending almost $7 million a year to operate and maintain (O&M) eight
       older, outdated, legacy IT systems supposed to be retired and/or subsumed with the
       implementation of ERA. (OIG Audit Report #12-08, dated March 30, 2012. See page
       12.)

   •	 Inadequate Contingency Planning Continues to be a Significant Risk for the ERA
      System. We followed up on the status of two previously reported ERA issues; the lack
      system backups, and the lack of fan alternative backup site. These issues have not been
      adequately addressed. It is still unknown if the ERA System (in its entirety) can be
      successfully restored from backup tapes, and there is not an alternative backup site. (OIG
      Audit Report #12-04, dated January 30, 2012. See page 14.)

Programs and Operations

   •   Management of Records at the Washington National Records Center (Report #1).
       Conditions at the Washington National Records Center (WNRC) constituted a potential
       national security risk. Management controls were inadequate to safeguard and
       adequately secure records, including classified records. As a result of our audit NARA
       promptly initiated corrective actions. The Archivist also ordered a one day stand-down
       of all Federal Records Centers to assess whether the problems at WNRC existed
       elsewhere, and established a WNRC Oversight Group to ensure leadership participation
       in resolving long standing issues at WNRC. (OIG Audit Report #12-02, dated January 3,
       2012. See page 11.)

   •   Management of Records at the Washington National Records Center (Report #2).
       A lack of controls and effective management oversight at WNRC resulted in an
       environment where records could not be properly accounted for, processed, disposed of
       or adequately safeguarded. WNRC revenue generating activities were adversely
       impacted, and records were at risk of possible loss, damage, compromise, or
       unauthorized disclosure. (OIG Audit Report #12-05, dated March 27, 2012. See page
       11.)

   •	 Compliance with the Improper Payment Elimination and Recovery Act of

      2010. NARA’s work in determining agency activities were not susceptible to 

      significant improper payments, and NARA’s analysis determining no recapture 

      payment audits were needed appeared to be sufficient and reasonable. (OIG

      Audit Memorandum Report #12-07, dated February 23, 2012. See page 15.)


   •	 NARA’s Fiscal Year 2011 Financial Statements. NARA received an 

      unqualified opinion on their financial statements. There were no significant

      deficiencies, and no instances of none compliance with the laws and regulations

      reviewed. There was one material weakness in internal control over financial

      reporting, but this is correctable through the recommendations made. (OIG

      Audit Report #12-03, dated July 7, 2011. See page 15.)



SEMIANNUAL REPORT TO CONGRESS                                                            Page 3
October 1, 2011 to March 31, 2012
EXECUTIVE SUMMARY

                                       Investigations

Significant accomplishments by the Office of Investigations (OI) during this reporting period
include:

   •	 Three subjects in two ongoing criminal investigations supported by the Department of
      Justice (DoJ) pleaded guilty to charges of theft.

   •	 One subject in another DoJ supported investigation pleaded guilty to charges of

      copyright infringement.


   •	 As a result of a joint investigation with the Naval Criminal Investigative Service, a
      NARA employee pleaded guilty to possessing child pornography and resigned from his
      position.

   •	 As a result of a joint investigation with the Veterans Administration, Office of Inspector
      General, an individual pleaded guilty to theft. He was sentenced to six months
      imprisonment, and required to pay back the benefits he fraudulently received.

   •	 The Archival Recovery Team (ART) recovered 9,389 NARA holdings including records
      from the prosecution of Al Capone and the Watergate scandal.

   •	 As a result of an OI referral, NARA removed a contract security guard from a facility.

The OI opened 17 investigations and 48 complaints for preliminary investigation, while closing
14 investigations and 103 complaints. At the end of this reporting period, OI had 24 ongoing
investigations and 15 complaints. Three investigations and eight complaints were referred to
NARA management for information or appropriate action. Over 50 percent of the ongoing
investigations and complaints involve the potential alienation of NARA holdings. This number
reflects continuing OI efforts through ART to identify and investigate lost, missing, and stolen
NARA holdings. The Department of Justice (DoJ) continues to work with the OI on several
ongoing investigations including allegations of theft, copyright infringement, fraud, and
conspiracy.

In February 2012, the Attorney General of the United States granted the Inspector General’s
application for statutory law enforcement authority. Previously, the U.S. Marshals Service
granted OI special agents recurrent, blanket special deputation which allowed us to execute
numerous search and arrests warrants in support of a variety of criminal investigations. The
successful prosecution of many of those investigations established the justification for statutory
law enforcement authority. The OI has begun preparations for a mandatory peer review that
must be completed within three years of being granted statutory authority.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 4
October 1, 2011 to March 31, 2012
INTRODUCTION

       About the National Archives and Records Administration
Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 200 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 4.3 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains nearly 600,000 artifact
items and more than 165 terabytes of electronic records. The number of records born and stored
solely in the electronic world will only continue to grow, thus NARA is developing the
Electronic Record Archives to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2011, NARA had 40
million online visits in addition to hosting four million traditional museum visitors, all while
responding to 1.3 million written requests from the public. NARA also publishes the Federal
Register and other legal and reference documents, forming a vital link between the Federal
Government and those affected by its regulations and actions. Through the National Historical
Publications and Records Commission, NARA helps preserve and publish non-Federal historical
documents that also constitute an important part of our national heritage. Additionally, NARA
administers 13 Presidential libraries preserving the papers and other historical materials of all
past Presidents since Herbert Hoover.

Resources
In fiscal year (FY) 2012, NARA was appropriated an annual budget of approximately $391.5
million and 3,266 (estimated) Full-time Equivalents (FTEs), including appropriations of $373.3
million for operations, $9.1 million for repairs and restorations of facilities, and $5 million for
grants. The ERA system no longer has a separate appropriation, and funds for the ERA come
out of NARA operating expenses. NARA operates 44 facilities nationwide.

SEMIANNUAL REPORT TO CONGRESS                                                               Page 5
October 1, 2011 to March 31, 2012
INTRODUCTION

                 About the Office of Inspector General (OIG)

The OIG Mission

The OIG serves the American citizen by improving the effectiveness, efficiency and economy of
NARA programs and operations. As part of this we detect and prevent fraud and abuse in
NARA programs, and strive to ensure proper stewardship over Federal funds. We accomplish
this by providing high-quality, objective audits and investigations; and serving as an
independent, internal advocate. Unique to our mission among other OIGs is our duty to ensure
NARA protects and preserves the items belonging in our holdings, while safely providing the
American people with the opportunity to discover, use and learn from this documentary heritage.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

•	 assesses the effectiveness, efficiency, and economy of NARA programs and operations;

•	 recommends improvements in policies and procedures to enhance operations and correct
   deficiencies;

•	 recommends cost savings through greater efficiency and economy of operations, alternative
   use of resources, and collection actions; and

•	 investigates and recommends legal and management actions to correct fraud, waste, abuse, or
   mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
In FY 2010, a separate appropriation was established for the OIG in compliance with the
Inspector General Reform Act of 2008. Previously funds for the OIG came from NARA’s
Operating Expenses appropriation. For FY 2012, Congress provided $4.1 million for the OIG,
including resources for 23 FTEs. At the beginning of the period, the OIG had one audit vacancy
to fill. During the period another audit vacancy was created due to the retirement of a senior
auditor. Currently the OIG has one Inspector General, one support staff, 11 FTEs devoted to
audits, nine FTEs devoted to investigations, and a counsel to the Inspector General.



SEMIANNUAL REPORT TO CONGRESS                                                           Page 6
October 1, 2011 to March 31, 2012
ACTIVITIES

             Involvement in the Inspector General Community

Counsel of Inspectors General on Integrity and Efficiency (CIGIE)
Legislation Committee
The IG served as a member of the CIGIE Legislation Committee. The Legislation Committee
provides regular and ongoing communication regarding legislative issues and other matters of
common interest between the Congress and CIGIE. Specifically, the Committee provides timely
information about Congressional initiatives to the IG community; solicits the views and concerns
of the community in response to legislative initiatives and Congressional requests; and presents
views and recommendations to Congressional committees and staff, the Government
Accountability Office, and the Office of Management and Budget on issues and legislation
affecting the IG community.

CIGIE Information Technology (IT) Committee
The IG served as a member of the CIGIE IT Committee. The IT Committee facilitates effective
IT audits, evaluations, and investigations by Inspectors General. The IT Committee also
provides a vehicle for the expression of the IG community's perspective on Government-wide IT
operations.

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. The AIGA attended FAEC’s meeting to discuss topics such as financial statement audit
issues, audit training, opinion reports on internal controls, and information security.

Assistant Inspectors General for Investigations (AIGI) Committee
The AIGI Committee serves as a standing subcommittee to the CIGIE Investigations Committee.
As a member, the AIGI helps provide guidance, assistance and support to the CIGIE
Investigations Committee in the performance of its duties. In addition, the AIGI Committee
serves as a conduit for suggestions, issues and concerns that affect the OIG investigations
community to the CIGIE Investigations Committee for appropriate action.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel continues to be an active member of the CCIG, and communicated regularly
with fellow members. The CCIG provides a rich environment where legal issues can be raised
and interpretations can be presented and reviewed with an experienced network of OIG lawyers.
During regular meetings multiple topics were discussed and addressed.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 7
October 1, 2011 to March 31, 2012
ACTIVITIES

                   Management Assistance and Other Work

•	 Reviewed the procedures and practices for identifying and securing high value records at two
   Presidential Libraries and a regional facility.

•	 Conducted outreach briefings at presidential libraries and regional facilities to ensure field
   staff are aware of the role of the OIG, and how they can help use the OIG to improve NARA.

•	 Provided feedback to the Office of Management and Budget on a proposed Executive Order,
   ensuring it was clarified to preserve the independence of OIGs.

•	 Responded to multiple requests for OIG records under the Freedom of Information Act.

•	 Reviewed legislative proposals and provided feedback to appropriate entities and reviewed
   newly passed legislation for its affect on NARA and the NARA OIG.

•	 Provided comment and input into several NARA directives and regulations covering a
   variety of topics.

                               Peer Review Information

Peer Review of NARA OIG’s Audit Organization
In accordance with Government Auditing Standards and CIGIE guidelines, the NARA OIG
system of quality control for the audit organization in effect for the year ended September 30,
2010 was reviewed by the Federal Communications Commission (FCC) OIG.

FCC OIG concluded “the system of quality control for the audit organization of NARA OIG in
effect for the year ended September 30, 2010 has been suitably designed and complied with to
provide NARA OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Federal audit organizations can receive
a rating of pass; pass with deficiencies, or fail. NARA OIG has received a peer review rating of
pass.” There are no outstanding recommendations from this review.

Peer Review of NARA OIG’s Office of Investigations
NARA OIG’s Office of Investigations was last peer reviewed by the National Science
Foundation in May of 2008. There are no outstanding recommendations from this review.

In February 2012, the Attorney General of the United States granted the Inspector General’s
application for statutory law enforcement authority. Accordingly, the OI has begun preparations
for the now mandatory peer review that must be completed within three years of being granted
statutory authority.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 8
October 1, 2011 to March 31, 2012
ACTIVITIES

                          Response to Congressional Items


Briefings to Congressional Committee Staffs
During the reporting period we briefed several Congressional Committee staffs on topics of
current interest such as ongoing investigations, problems at the Washington National Records
Center and the Electronic Records Archives.

Congressional Staff Visit to the Washington National Records Center
We attended a site visit by several Congressional staff members to the Washington National
Records Center to discuss shortcomings at the facility and explain issues identified by the OIG.

Federal Information Security Management Act (FISMA) Report

As required by FISMA, the OIG conducted an independent assessment of the effectiveness of
NARA’s information security program and practices. The scope of the assessment encompassed
11 program areas identified by the Office of Management and Budget and the Department of
Homeland Security (DHS). These program areas included: risk management; configuration
management; incident response and reporting; security training; plans of actions and milestones
(POA&M); remote access management; identity and access management; continuous monitoring
management; contingency planning; contractor systems; and security capital planning.

We found NARA needs significant improvements in each of these 11 program areas to be
consistent with FISMA and National Institute of Standards and Technology (NIST)
requirements. Specifically, weaknesses identified in prior year assessments persist in NARA’s
risk management, POA&M, remote access management, identity and access management, and
contingency planning processes. During 2011, efforts were made to improve incident response
and reporting, yet additional work was still needed to meet NIST requirements. Deficiencies
were also found with the timely application of critical system patches, and security training of
new users and those with significant security responsibilities. Further, NARA has not achieved
consistent implementation of its continuous monitoring, contractor oversight, and security capital
planning policies and processes.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 9
October 1, 2011 to March 31, 2012
AUDITS

                                                       Overview

This period, we issued:

     • five final audit reports;

     • one audit memorandum; 1 and,

     •	 two management letters. 2

We completed fieldwork on the following:

    •	 an audit of NARA’s Data Center Consolidation Initiative assessing NARA’s progress in
       meeting consolidation objectives and consolidating data centers;

    •	 an audit of NARA’s Classified Systems determining whether NARA’s classified systems
       are properly managed and adequately secured;

    •	 a Network Assessment audit to determine whether controls are adequate, identify
       inadequacies, and make recommendations to better support NARA’s business needs and
       ensure peak efficiency;

    •	 a follow-up audit of the Process of Safeguarding and Accounting for Presidential Library
       Artifacts evaluating NARA’s efforts implementing recommendations contained in OIG
       Audit Report 08-01, and determining whether actions taken provide reasonable assurance
       management controls are adequate to safeguard and account for library artifacts;

    •	 an audit of NARA’s Public Transit Subsidy Program determining the adequacy and
       effectiveness of internal controls over the administration of this program; and

    •	 an audit of NARA’s Parking Control System at Archives II determining the adequacy of
       management controls and whether the system meets NARA requirements.

We initiated work on the following assignments:

    •	 an audit of NARA’s Preservation Program to determine whether program controls are
       adequate to meet the mission of preserving Federal records; and

    •	 an audit of the Office of Government Information Services to determine whether the
       office has been adequately established and is meeting the legal intent for which it was
       created.

    •	 an Audit of the Processing of Textual and Electronic Records to evaluate and assess the
       controls over the process of making archival records available to the public.

1 An audit memorandum is used when an audit is performed and there are either no findings or the findings are insignificant.
2 Management letters are used to address issues which need to be quickly brought to the Archivist’s or management’s attention.


SEMIANNUAL REPORT TO CONGRESS                                                                                         Page 10
October 1, 2011 to March 31, 2012
AUDITS

                                      Audit Summaries

Management of Records at the Washington National Records Center
(WNRC) (Report #1)

Our objective was to evaluate and assess the adequacy of controls over the management and
handling of records at WNRC, for this we issued two separate audit reports. This audit
specifically focused on whether controls were in place to adequately safeguard and secure the
records held at WNRC. Audit procedures focused on controls over record security, processing
new transfers of records, disposal of records, requests for existing records, and refiling of
records.

Overall we found management controls were inadequate to safeguard and adequately secure
records at WNRC. WNRC opened in 1966 and has been plagued with problems spanning the
last 30 years. Many of the past and current problems result from the abject failure of
management including a lack of effective management oversight. In this first audit report, we
noted conditions at WNRC constitute a potential national security risk. Controls to mitigate
unauthorized access to our nations’ classified records residing in this facility either did not exist
or could be readily bypassed. Security mechanisms in place were inadequate and even those
minimal controls established were subject to repeat compromise. The lack of controls and
concern over protecting records resulted in an environment at WNRC where security was not a
top priority, employees lacked attention to detail, and security incidents frequently occurred.

We made 14 recommendations for improvement. Management concurred with each
recommendation. After issuance of the final report, the Archivist ordered a stand-down of each
of the Federal Records Centers (FRCs) for one day to assess whether any of the problems
identified at WNRC existed elsewhere. Based on the assessment, none of the other FRCs were
experiencing the scope of challenges faced by WNRC. Action plans are being developed for
each FRC to address any identified issues and steps to address problems will be monitored by the
Executive for Agency Services.

The Archivist also established a WNRC Oversight Group to ensure leadership participation in
oversight of plans, actions, and results related to resolving the long standing issues at WNRC.
The group is chaired by the Chief Operating Officer and includes participants from Agency
Services and Business Support Services and observers from the Information Security Oversight
Office and the OIG. (OIG Audit Report #12-02, dated January 3, 2012.)

Management of Records at the Washington National Records Center
(Report #2)
This was the second audit report issued for issues involving the WNRC (the first audit report,
OIG #12-02, dated January 3, 2012, is discussed above). This report focused on the handling of
records, the Archives and Records Centers Information System (ARCIS), training, policies, and
procedures.


SEMIANNUAL REPORT TO CONGRESS                                                                 Page 11
October 1, 2011 to March 31, 2012
AUDITS

Our audit disclosed management controls were either missing, ineffective or inadequate to
appropriately manage and handle records at WNRC. This coupled with a lack of effective
management oversight resulted in an environment where records could not be properly
accounted for, processed, disposed of or adequately safeguarded.

We found:
•	 Record classification levels were not reviewed in detail to ensure classified documents were
   appropriately segregated.
•	 There were no controls in place to track and monitor new records stored in WNRC hallways.
•	 A formalized problem tracking and resolution process was not in place to properly track
   problems with records received, stored, or removed from WNRC.
•	 Controls over disposals were not adequate to ensure records were disposed of timely. These
   items included non-textual records approved for disposal, but were not destroyed. We
   determined WNRC has lost a total of $131K from 2001 to 2011. The yearly amount
   escalated in 2011 to $50K and WNRC will continue to lose this amount each year in revenue
   if they allow these records to sit on the shelf at no cost to the agencies.
•	 Periodic inventories of the records held at WNRC were not conducted.
•	 Records stored at WNRC were not adequately safeguarded as records were not carefully
   maintained.
•	 Archives and Records Centers Information System (ARCIS) access was not properly
   restricted as terminated and transferred employees maintained access after their separation
   from WNRC.
•	 ARCIS was not updated timely to reflect the current status of records held at WNRC.
•	 WNRC did not require agencies to use the ARCIS customer portal.
•	 WNRC employees have not been trained on the processes outlined in the Classified Standard
   Operating Procedures (SOP) manual. In addition, there was no monitoring in place to ensure
   the procedures in the Classified SOP were operating as written.
•	 Guidelines were not followed or enforced when agencies sent records to WNRC.
•	 Documented procedures did not exist for many WNRC operations.

As a result of the issues noted above, WNRC revenue generating activities depending on proper
records management activities were adversely impacted. We made 12 recommendations
intended to strengthen the effectiveness of controls at WNRC. Management concurred with
each of the recommendations included in the report. (OIG Audit Report #12-05, dated March
27, 2012.)

NARA’s Reliance on Legacy Systems to meet Electronic Records Mission
Needs

The Electronic Records Archives (ERA) is a major information system intended to preserve and
provide access to massive volumes of all types and formats of electronic records, independent of
their original hardware or software. The use of ERA will be mandatory for all Federal agencies
in September 2012.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 12
October 1, 2011 to March 31, 2012
AUDITS

This audit found NARA is spending almost $7 million a year to operate and maintain (O&M)
eight older, outdated, legacy systems that were supposed to be retired and/or subsumed with the
implementation of ERA. This is in addition to ERA’s estimated annual $23 - $25 million O&M
cost. In addition to the legacy systems’ O&M costs, NARA plans to spend almost $2 million
between fiscal years 2011 and 2012 in system development, modernization, and enhancements
for two of these systems.

This condition exists because, as we reported in our July 15, 2011 Advisory Report No. 11-16
entitled, “Implementation Status of the Electronic Records Archives System Requirements,” 58
percent of ERA’s original requirements were no longer planned to be included in the system at
the end of the development phase on September 30, 2011. By not implementing these
requirements, ERA lacks much of the functionality originally envisioned for the system. As a
result, these eight older legacy systems have to remain in place.

According to the ERA Business Case Analysis, the majority of the quantitative benefits of ERA
will be achieved by the reduction in costs of operating and maintaining numerous stove pipe
systems not capable of meeting NARA’s long term electronic records lifecycle needs. However,
in order to realize these quantitative benefits the legacy systems need to be retired and/or
subsumed by ERA.

A senior ERA program official stated these legacy systems will not be retired until all the data
they contain is migrated into ERA, or their role in managing the legacy tape collection has been
completed when the legacy tape migration is complete. This official also stated there are no
specific dates for finalizing the migration of all legacy data and functionality required into ERA.
She added they will not be able to shut the legacy systems down in 2012, and without knowing
how much work on these systems will be budgeted in 2013, it is unknown when NARA would
be able to do so.

The NARA official responsible for the ERA Business Requirements Group (BRG), which is
charged with managing the process of identifying and prioritizing needs for corrective and
adaptive maintenance on the ERA System, stated “the actual plans for retirement of legacy
systems are managed by the system owners.” The BRG receives requests for changes from the
business owners who are responsible for identifying and submitting descriptions of what they
need in order to do their work better, retire legacy systems, or support NARA strategic
objectives.

Unfortunately, ERA’s lack of a backup site has also left NARA relying on legacy systems as
alternatives in case the ERA’s primary site is unavailable. We reported in our January 30, 2012
Advisory Report No. 12-04 entitled, “Inadequate Contingency Planning Continues to be a
Significant Risk for the Electronic Records Archives System,” there is not a backup site for the
ERA System.

We acknowledge that without the original planned functionality in the ERA System, or an
alternative processing site, it is unrealistic to retire/subsume these legacy systems at this time.
However, NARA should develop a plan with milestones identifying the steps needed to
retire/subsume these legacy systems in order to stop incurring the annual O&M costs, as well as


SEMIANNUAL REPORT TO CONGRESS                                                               Page 13
October 1, 2011 to March 31, 2012
AUDITS

the costs for upgrades/adaptive maintenance in order to keep them functioning. The Chief
Information Officer should take the lead on this effort and not rely solely on the system owners
to develop plans for the retirement of their systems. (OIG Audit Report #12-08, dated March 30,
2012.)

Inadequate Contingency Planning Continues to be a Significant Risk for the
ERA System

As part of our effort to provide coverage to ERA, we followed up on the status of two issues: 1)
system backups and 2) an alternative backup site, which we previously reported on in Advisory
Report No. 10-11 entitled, “Inadequate Contingency Planning for the Electronic Records
Archives System” dated April 29, 2010. We found these issues have not been adequately
addressed: (1) it is still unknown if the ERA System (in its entirety) can be successfully restored
from backup tapes and (2) there is not an alternative backup site.

The current method of protecting the ERA System from a disaster is done by the storage of
backup tapes at Archives II in College Park, MD. Incremental backups of data are done daily at
the ERA System’s primary location, the Allegany Ballistics Lab (ABL) in Rocket Center, West
Virginia. Our concern, has been, and continues to be ERA, in its entirety, has still not been
restored from backup tapes. Without adequate testing, it is still unknown if ERA can be restored
in a timely manner from backup tapes. An ERA official acknowledged that although restoration
from tape for ERA has not been demonstrated in its entirety, restoration of selected subsets of
ERA business objects and records has been successfully accomplished. However, restoration of
selected subsets of ERA does not provide us with an adequate level of confidence the system, in
its entirety, could be successfully restored in a timely manner should a disaster occur. An ERA
official indicated to us it still has not been demonstrated the Executive Office of the President
data archive can be successfully restored from tape. We suggest the ERA Program Office
conduct adequate testing to determine if the ERA System (in its entirety) can successfully be
restored from backup tapes in a timely manner.

Currently, there is no alternative ERA backup site or an official Disaster Recovery Plan for the
ERA System. In the event of a disaster rendering the current ERA production data center
unusable, NARA does not have an alternative processing site to continue ERA operations.
NARA would need to acquire the funding to purchase replacement hardware, obtain data center
space to house the new equipment and have the offsite tapes sent to the new location to begin
restoration of the system. A senior ERA Program Official stated instead of a backup site, we are
storing backup disks at Archives II. Although we agree backing the system up and storing the
tapes offsite is an important and necessary control for disaster recovery, we do not think it should
be in lieu of an alternative backup site. The ERA System’s Federal Information Processing
Standard (FIPS) Categorization for Availability is “Moderate,” meaning a prolonged
discontinuance of service would result in an impact to mission requirements. The FIPS 199
Recovery Strategy for a system with an impact level of Moderate for Availability is to have a
cold or warm Backup site.

The current ERA Business Impact Analysis and ERA Contingency Plan both address a primary
site unavailability scenario by utilizing the existing NARA legacy applications. In our opinion,

SEMIANNUAL REPORT TO CONGRESS                                                              Page 14
October 1, 2011 to March 31, 2012
AUDITS

the reliance on legacy systems is not an adequate control and does not comply with FIPS for a
system critical to NARA’s mission and that will be mandatory for use by all Federal agencies
this year. We suggest the ERA Program Office conduct an analysis of risks and alternatives to
determine the level of risk management is willing to accept and the most cost effective
alternative to meeting NARA’s mission if the ABL was unavailable for an extended time period.
(OIG Advisory Report #12-04, dated January 30, 2012.)

Compliance with the Improper Payment Elimination and Recovery Act of
2010
As required by Section 3(b) of the Improper Payments Elimination and Recovery Act of
2010, the OIG completed an independent review of NARA’s improper payment reporting
in NARA’s FY 2011 Performance and Accountability Report and accompanying
materials. Our review focused on NARA’s compliance with the Improper Payments
Information Act of 2002, as amended (IPIA).

NARA did not identify any programs or activities susceptible to significant improper
payments, and has determined payment recapture audits would not be cost-effective. We
reviewed NARA’s risk assessment process, internal control tests and reviews, and trial
balances used in determining NARA programs or activities were not susceptible to
significant improper payments. We also reviewed NARA’s analysis in determining no
recapture payment audits were needed.

NARA’s work in determining NARA programs or activities were not susceptible to
significant improper payments, and NARA’s analysis in determining no recapture
payment audits were needed, appeared to be sufficient and reasonable. We believe
NARA instituted a systematic repeatable method of reviewing all programs to identify
programs susceptible to significant improper payments. This systematic method took
into account risk factors likely to contribute to significant improper payments. As a
result of our review, we believe NARA is in compliance with the intent of the Improper
Payments Information Act of 2002, as amended. (OIG Audit Memorandum #12-07,
dated February 23, 2012)

NARA’s Fiscal Year 2011 Financial Statements

We contracted with Cotton & Company LLP (C&C), a public accounting firm, to audit NARA’s
Consolidated Balance Sheets as of September 30, 2011 and 2010, and the related Statements of
Net Cost, Changes in Net Position, and Budgetary Resources (the last statement as restated for
2010) for the year then ended. C&C issued NARA an unqualified opinion on NARA’s FY 2011
and 2010 financial statements (restated).

The FY 2010 Statement of Budgetary Resources has been restated to correct a material
misstatement related to the year-end revenue accrual for unfilled customer orders. For FY 2011,
C&C reported one material weakness in internal control over financial reporting in the area of
NARA’s review of manual journal entries resulting in two recommendations that, if
implemented, should correct the matters reported.

SEMIANNUAL REPORT TO CONGRESS                                                            Page 15
October 1, 2011 to March 31, 2012
AUDITS

C&C disclosed no significant deficiencies and no instances of noncompliance with certain
provisions of laws and regulations. Management concurred with the recommendations. We
monitored C&C’s performance of the audit to ensure it was conducted in accordance with the
terms of the contract and in compliance with Government Accountability Office (GAO)
Government Auditing Standards and other authoritative references, such as OMB Bulletin
No. 7-04, Audit Requirements for Federal Financial Statements. We are involved in the
planning, performance, and reporting phases of the audit. Our review disclosed no instances
wherein C&C did not comply, in all material respects, with the contract or Government Auditing
Standards. (OIG Audit Report #12-03, dated December 15, 2011.)




SEMIANNUAL REPORT TO CONGRESS                                                          Page 16
October 1, 2011 to March 31, 2012
INVESTIGATIONS

                                       Investigations

The OI receives and evaluates complaints, and conducts investigations related to fraud, waste,
and abuse in NARA programs and operations. This includes identifying and recovering alienated
NARA holdings. Investigations showing violations of Federal law, NARA Directives, or
contract terms/specifications may result in administrative sanctions, civil action, or criminal
prosecution. Such actions can include employee terminations, contractor debarments, and court-
imposed prison terms, probation, fines, or restitution. The OI may also issue Management Letters
to the Agency detailing systemic or timely problems or vulnerabilities, and offer
recommendations on how to correct them.

OI activities are broadly divided into two groups, general investigations and Archival Recovery
Team (ART) investigations. General investigations encompass the entire spectrum of criminal
and administrative investigations, including such topics as procurement fraud, employee
misconduct, and cyber crimes. ART investigations revolve around protecting NARA’s historical
holdings and returning items missing from NARA’s collection.

The OI has statutory law enforcement authority, and is presently staffed with seven 1811 series
criminal investigators, an Investigative Archivist, and a Director of Computer Crimes. The OI is
based in Archives II in College Park, MD but conducts investigations at all NARA locations
across the country. OI maintains a close relationship with NARA Security Services to
coordinate law enforcement efforts impacting NARA. Specifically, ART routinely coordinates
efforts with the Holdings Protection Team, a NARA Security Services unit charged with
proactively protecting and securing NARA holdings. We also liaison with the Department of
Justice (DOJ), the OIG community, and other law enforcement agencies and organizations.

Proactive Efforts

While conducting reactive investigations, the OI may identify vulnerable activities, programs, or
procurements. To address this, OI may open proactive investigations to determine if fraud or
other criminal activity has occurred, or to identify specific agency vulnerabilities. Findings from
these proactive investigations result in Management Letters or spin-off investigations. The OI
opened two proactive investigations during this reporting period to document initiatives related
to Federal Employee Compensation Act fraud and information security violations.

Overall Activity Summary

At the end of the last reporting period, 56 complaints were open. The OI opened 48 new
complaints, of which 14 were turned into full investigations. Additionally, 81 complaints were
closed final and 8 were referred to NARA for action. At the end of this reporting period, 15
complaints were open.

At the end of the last reporting period, 21 investigations were open. During this reporting
period, 17 investigations were opened and 14 were closed. Six of the closed investigations were
referred to NARA for action. At the end of this reporting period, 24 investigations were open.


SEMIANNUAL REPORT TO CONGRESS                                                              Page 17
October 1, 2011 to March 31, 2012
INVESTIGATIONS

                                    General Investigations

Updates on Previously Reported General Investigations

Copyright Infringement
As a result of an OI investigation involving the execution of three search warrants, a NARA
employee was arrested and subsequently pleaded guilty to criminal copyright infringement.
According to his plea agreement, the employee provided potential customers with lists of at least
1,144 copyrighted movie titles and 971 copyrighted songs available for sale.

External Access of Child Pornography
A NARA employee was alleged to be accessing child pornography from his home computer by
an external law enforcement entity. An examination of the employee’s NARA computer found
no indication child pornography was accessed from the workplace. The case was accepted for
prosecution, and the employee pleaded guilty to receipt of child pornography. The employee
resigned from his position with NARA and is scheduled for sentencing.

Threatening/Harassing Email
An employee used his NARA computer to send threatening / harassing emails to other
government employees. OI referred these findings to NARA management.

Improper Disposition of NARA Property
A non-profit organization participating in the General Services Administration (GSA) Computers
for Learning program mishandled excess NARA IT equipment. The joint investigation with the
GSA OIG was closed pending a prosecutorial determination by the supporting U.S. Attorney’s
Office (USAO).

Grey Market Information Technology Equipment
A vendor provided NARA with counterfeit and grey market information technology equipment.
DoJ declined to prosecute the case. However, the OI investigation prevented the undue payment
of over $1 million to the subject company, and they were referred to the Office of General
Counsel for suspension/debarment consideration.

Mishandling of Internal Revenue Service (IRS) Records
A NARA employee gained unauthorized access to sensitive IRS criminal records by opening a
sealed box. The employee then provided false statements about the incident to their supervisor.
The OI referred the case to NARA management.

New General Investigation Highlights

Theft of Funds
A NARA employee stole money from an admissions cash register at a Presidential Library. The
employee admitted to the theft, and was subsequently arrested by local authorities. The county
prosecutor’s office accepted the case and adjudication is pending.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 18
October 1, 2011 to March 31, 2012
INVESTIGATIONS

Contract Guard Misconduct
A supervisory contract security guard allegedly extorted subordinate employees, and engaged in
inappropriate sexual relationships with other guards. OI referred the findings to management
and a decision is pending. Additionally, another contract security guard interfered with the
investigation and was removed from the contract.

Veteran Benefit Fraud
As a result of a joint investigation with the Veterans Administration (VA) OIG, a subject who
received veteran benefits for which he did not qualify pleaded guilty to theft. He was sentenced
to 6 months imprisonment, 36 months supervised release, fined $100.00, and ordered to pay
$33,868.92 in restitution.

The OI closed another joint veteran benefit fraud investigation with the VA OIG. VA OIG has
completed the investigation and a prosecutorial determination from the supporting USAO is
pending.

As part of an ongoing third joint investigation with the VA OIG, a former NARA employee
admitted using NARA resources to falsify a Bronze Star and a Purple Heart certificate. The
subject admitted he submitted falsified documents to receive VA benefits. A prosecutorial
decision from the supporting USAO is pending.

Stolen Valor
An individual misrepresented his service record and fabricated a NARA memo. This fourth joint
VA OIG investigation is also pending a prosecutorial determination.

Theft of Personal Credit Card
A NARA employee’s credit card was stolen and used illegally. The OI worked with local law
enforcement and two subjects were eventually arrested. This investigation was declined for
Federal prosecution; however, local authorities charged one subject with 28 counts of theft,
while the second subject is cooperating with the investigation.

                    Archival Recovery Team (ART) Activity
ART is an OI unit which investigates and recovers alienated federal records. A Special Agent in
Charge leads the unit and employs the expertise of an Investigative Archivist. The team works
with NARA archivists, the Holdings Protection Team, and other law enforcement organizations
responsible for investigating thefts, loss, or trafficking of cultural artifacts and fine art.

Thefts

ART investigates all allegations of theft of NARA holdings. Thefts may be internal or external
and involve NARA employees, contractors, interns, and researchers. ART refers all instances of
substantiated theft to DOJ for potential criminal prosecution. ART also refers internal thefts to
NARA management for administrative action.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 19
October 1, 2011 to March 31, 2012
INVESTIGATIONS

Non-criminal Recoveries

Individuals may intentionally or unknowingly alienate a Federal record before it is accessioned
into NARA’s holdings. Once identified, alienated records are subject to recovery through a legal
process known as replevin, a common law action to recover property unlawfully taken.

If ART receives allegations a record or item was alienated, the Investigative Archivist establishes
whether the record should have been accessioned into NARA’s holdings. If the record should
have come to NARA, ART then refers this substantiation to the NARA Office of General
Counsel (NGC) to begin the replevin process or other methods of recovering the document, such
as voluntary donation. If the holder of the document is unwilling to release or donate a
document, NGC may also pursue recovery through the DoJ civil division.

Proactive

Tips from our public sentinels are critical to successfully recovering of our nation’s records. To
leverage the power of their knowledge, ART engages in a variety of initiatives to establish
relationships within the historical artifacts community and the public at large. Several times
every year, ART staffs a display at various historical artifact shows throughout the country.
ART also maintains a facebook page updating the public about upcoming shows and ART
happenings, along with other newsworthy items about document thefts, investigations, and
recoveries at NARA and other institutions worldwide. Visit the site at
http://www.facebook.com/archivalrecoveryteam. Finally, ART reviews NARA holdings,
identifying items at risk for theft and making recommendations to NARA about what records
should be restricted or protected.

Missing Documents

Working in conjunction with NARA, ART has established a listing of documents identified as
missing from NARA holdings. Some of these documents are known to have been stolen, but
have never been recovered. Others have simply been identified by NARA archivists or
researchers as missing. In both cases, ART has little or no evidence to work with, so the
documents are posted on the NARA website in the hope of receiving viable leads to recover
these materials. Please visit the website at www.archives.gov/research/recover/missing­
documents.html to learn more. If you have information about any documents listed on the site or
believe you have seen Federal documents in private hands, please email ART at
MissingDocuments@nara.gov.

Updates on Previously Reported ART Investigations

Internal Theft of Sound and Motion Picture Recordings
A former employee pleaded guilty to embezzling government property from NARA. Special
agents executed a search warrant on the subject’s residence and seized over 6,000 recordings, at
least 955 of which belonged to NARA. He is scheduled for sentencing. (NOTE: After the close
of the semi-annual period, the former employee was sentenced to 18-months in prison, two years
probation, and a $10,000 fine on May 3, 2012.)


SEMIANNUAL REPORT TO CONGRESS                                                              Page 20
October 1, 2011 to March 31, 2012
INVESTIGATIONS

Theft of Historical Materials
As a result of a joint investigation with the Federal Bureau of Investigation, two subjects pleaded
guilty to conspiracy and theft of historical documents. The subjects visited numerous museums,
accessed collections of documents which they had determined to be of significant value, used
various techniques to steal them, and then sold some for personal gain. Both subjects are
pending sentencing.

Recovery of Watergate Prosecution Documents
ART recovered 2,189 pages of original federal records from a private university. After being
notified by a researcher, NARA archivists confirmed the federal records were among materials
donated by a private individual to the institution more than 30 years ago.

Recovery of Al Capone Prosecution Records
ART recovered through donation approximately 7,200 pages of documents related to the
prosecution of Al Capone.

New ART Investigative Highlights

Pending Referrals for Recovery of Alienated Documents
During this reporting period, ART referred seven complaints to management for recovery
consideration. ART closed two of the seven as unrecoverable, and eight total referrals remain
pending with management.

Missing Photographs
Photographs of Rabbi Mendel Schneerson and his wife, Moussia Haja Schneerson are missing
from a naturalization petition. A photograph of Yee Wee Thing is also missing from an
immigration file. ART will post additional details about these missing photos on the NARA
website.

Clipped Signatures
Five signatures of notable personalities were clipped from files of the Radio Division, Records of
the Office of War Information. Three signatures were clipped from a record book. Finally, a
single signature was cut from a document labeled “Pension Rev War Claims Committee Papers
Petition & Memorials."

Missing U.S. Mint Documents
Fifteen pages are missing from a bound volume in the Records of the U.S. Mint. The pages
concern U.S. Double Eagle Gold Coins.

Assistance to Federal Agencies
ART assisted three Federal agencies in reviewing federal records this reporting period. ART
helped the National Aeronautics and Space Administration OIG investigate a checklist from the
Apollo 13 mission. Several photos from the Nuremburg Trials were donated to the Holocaust
Museum because of ART assistance. Finally, ART facilitated the donation of two telegrams in
the hand of President Abraham Lincoln to the Library of Congress.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 21
October 1, 2011 to March 31, 2012
INVESTIGATIONS

                                    Computer Crimes Unit


In 2005, NARA OIG established a Computer Crimes Unit (CCU) within the OI. The CCU
provides laboratory and field support for digital evidence seized or surrendered to NARA OIG or
other law enforcement agencies working with the NARA OIG. Typical digital evidence forensic
support services include computer and computer storage examination, volatile and flash memory
storage device (cell phones, two-way pagers, Personal Digital Assistants, facsimile machines,
satellite phones, GPS receivers, digital cameras, and other consumer communication and
electronic storage devices) examination, on-site computer hard drive imaging, expert witness
testimony, data analysis to determine evidentiary value, and technical training. The CCU is
staffed by one full-time computer crimes investigator and one Special Agent working with the
CCU as part of his duties as a criminal investigator.

Throughout the reporting period, the CCU has continued to provide considerable support to an
ongoing investigation related to the theft of a large amount of historical documents from NARA
and multiple other repositories. The CCU completed forensic examinations of a large volume of
digital evidence seized during a series of search warrants. The results of the forensic
examination identified a significant amount of evidence related to the planning and conduct of
the thefts. Both subjects have now pleaded guilty to conspiracy and theft of historical
documents, however the investigation remains ongoing.

In October 2011, the CCU participated in the execution of two search warrants related to the
investigation of allegations a NARA employee was illegally copying DVD movies and music
CDs in his office at NARA’s facility in College Park, MD and selling them to NARA employees.
CCU representatives seized a large number of computers and other digital evidence. In the
resulting forensic examination, evidence was identified supporting the allegations including
“ripped” copies of movies and music CDs, and copies of the software used to bypass copyright
protection features of the movies and CDs. The subject has pleaded guilty to criminal copyright
infringement.

The CCU also supported several investigations being conducted by the Federal Communications
Commission (FCC) OIG. In the FCC OIG case, the CCU obtained, processed, and examined
approximately two-hundred (200) gigabytes of digital evidence from two laptop computers.

In addition to supporting investigations, the CCU validated a number of computer forensic tools
during this reporting period. Although the CCU has always informally validated
hardware/software tools used in the performance of computer forensic activities, the CCU has
started to formally validate tolls to comply with recently promulgated quality standards for
computer forensics established for the OIG community.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 22
October 1, 2011 to March 31, 2012
INVESTIGATIONS

                                         OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

   •   By telephone
       Washington, DC, Metro area: (301) 837-3500 

       Toll-free and outside the Washington, DC, Metro area: (800) 786-2551 

   •   By mail
       NARA OIG Hotline
       P.O. Box 1821

       Hyattsville, MD 20788-0821 

   •   By e-mail
       oig.hotline@nara.gov
   •   By Fax
       (301) 837-0879
   •   By online referral form
       http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition. Where
appropriate, referrals are made to OIG audit staff, NARA management, or external authorities.
Substantive Hotline contacts are captured as complaints in the Office of Investigations.

                        OIG Hotline Activity for the Reporting Period
                    Complaints received                                       48
                    Complaints closed pending response from NARA               8
                    Complaints closed final                                   81
                    Complaints open to Investigations                         14


                         Contractor Self Reporting Hotline
As required by the Federal Acquisition Regulation, a web-based form allows NARA contractors
to notify the OIG, in writing, whenever the contractor has credible evidence a principal,
employee, agent, or subcontractor of the contractor has committed a violation of the civil False
Claims Act or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or
gratuity violations in connection with the award, performance, or closeout of a contract or any
related subcontract. The form can be accessed through the OIG’s home page, for found directly
at: http://www.archives.gov/oig/contractor-form/index.html


SEMIANNUAL REPORT TO CONGRESS                                                               Page 23
October 1, 2011 to March 31, 2012
TOP TEN MANAGEMENT CHALLENGES

                                          Overview

Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness; and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

One area not identified below is the impact of the major NARA transformation instituted under
the direction of Archivist of the United States David S. Ferriero. The organizational structure the
Archivist inherited when he came to NARA two short years ago has been radically re-
engineered, and the majority of senior staff who held positions of authority under the former
Archivist have left the agency. The process of transforming NARA to meet our core mission in
this digital age is essential, but organizational transformations by their very nature may
precipitate unforeseen challenges to staff and management alike.

1.     Electronic Records Archives
NARA initiated the Electronic Records Archive (ERA) program in order to address the challenge
of ingesting, preserving and providing access to our nation's electronic records for as long as
needed. However, virtually since inception the program has been fraught with delays, costs
overruns, and technical short comings and deficiencies. Elements of these problems were
identified by NARA's Office of Inspector General and the Government Accountability Office
(GAO). In August 2010, OMB placed ERA on its high-priority list of 26 high-risk IT projects
selected from across the Federal government. On September 30, 2011 the development contract
between NARA and Lockheed Martin Corporation concluded. However, many core
requirements were not fully addressed, and ERA lacks the originally envisioned functionality.

The program has now transitioned to an Operations and Maintenance (O&M) phase under a 10­
year, $240 million contract with IBM. The O&M tasks to be performed by IBM, under a firm-
fixed-price (FFP) arrangement, include: help desk operations, incident management, problem
management, hardware and software maintenance, asset and configuration management,
deployment management, capacity management, availability management, security services,
backup and recovery services, and ingest operations. The contract will also include replacing
and updating the technologies comprising ERA, and developing increased ERA functionality.
These additional tasks will be performed under Technical Direction Letters (TDLs) which may
be either FFP or time-and-materials (T&M) arrangements.

ERA faces many challenges going forward, including addressing increased volumes of data to be
ingested and increased number of users to be supported when ERA use becomes mandatory for
all federal agencies starting in September 2012. However, the greatest challenge will
be NARA's ability (with vendor support) to effectively meet stakeholder needs, while operating
and maintaining a system whose development failed to meet core benchmark requirements and
lacks originally envisioned capabilities.


SEMIANNUAL REPORT TO CONGRESS                                                              Page 24
October 1, 2011 to March 31, 2012
TOP TEN MANAGEMENT CHALLENGES

2.     Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby
ensuring people can discover, use, and learn from this documentary heritage. NARA provides
continuing access to the essential documentation of the rights of American citizens and the
actions of their government. The effective management of these records is key to accomplishing
this mission. NARA must work with Federal agencies to ensure the effective and efficient
appraisal, scheduling, and transfer of permanent records, in both traditional and electronic
formats. The major challenge is how best to accomplish this component of our overall mission
while reacting and adapting to a rapidly changing technological environment in which electronic
records, particularly e-mail, proliferate. In short, while the ERA system is intended to work with
electronic records received by NARA, we need to ensure the proper electronic and traditional
records are in fact preserved and sent to NARA in the first place.

NARA also directs the Electronic Records Management (ERM) initiative, one of 24 government-
wide initiatives under the E-Government Act of 2002. The ERM initiative will provide guidance
to agencies in managing and transferring their permanent electronic records to NARA, in an
increasing variety of data types and formats. In June 2008, GAO recommended NARA develop
and implement an approach to provide oversight of agency electronic records management
programs, to provide adequate assurance that NARA guidance is effective and the agencies are
following electronic records guidance. NARA, its Government partners, and Federal agencies are
challenged with determining how best to manage electronic records and how to make ERM and
e-Government work more effectively.

3.     Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers’
Financial Integrity Act reporting process beginning in FY 2007. NARA’s Office of Information
Services (I) conducted an independent assessment of the IT security program using the Program
Review for Information Security Management Assistance (PRISMA) methodology developed by
the National Institute for Standards and Technology (NIST) in FY 2007. The assessment stated
NARA’s policy and supporting procedures for IT security were weak, incomplete, and too
dispersed to be effective. Over five years later, NARA officials continue to work to address
weaknesses identified during the assessment.

IT security continues to present major challenges for NARA, including physical security of IT
hardware, and technical vulnerabilities within our electronic systems themselves and how NARA
operates them. Annual assessments of NARA’s compliance with the Federal Information
Security Management Act have consistently identified program areas in need of significant
improvement. The confidentiality, integrity, and availability of our electronic records and
information technology systems are only as good as our IT security infrastructure. GAO issued a
report in early FY 2011 identifying significant weaknesses in access controls, and other
information security controls, impairing NARA’s ability to ensure the confidentiality, integrity,
and availability of its information systems. Each year, risks and challenges to IT security
continue to be identified. NARA must ensure the security of its data and systems or risk
undermining the agency’s credibility and ability to carry out its mission.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 25
October 1, 2011 to March 31, 2012
TOP TEN MANAGEMENT CHALLENGES

4.     Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more
aggressively inform and educate our customers about the services we offer and the essential
evidence to which we can provide access. Unfortunately, approximately half of NARA’s textual
holdings have not been processed to allow efficient and effective access to these records. To
meet its mission, NARA must work to ensure it has the processes and resources necessary to
establish intellectual control over this backlog of unprocessed records.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate
access to information on-line, will be to provide such access to records created digitally (i.e.,
“born digital”) and to identify those textual records most in demand so they can be digitized and
made available electronically. ERA’s diminished access capabilities compound this problem.
NARA’s role in ensuring the timeliness and integrity of the declassification process of
classified material held at NARA is also vital to public access.

5.     Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records
to meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to
ensure its own facilities, as well as those used by other Federal agencies, are in compliance with
these regulations; and effectively mitigate risks to records which are stored in facilities not
meeting these standards.

6.     Preservation Needs of Records
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow
older daily and face degradation associated with time. This affects both traditional paper records,
and the physical media that electronic records and audio/visual records are stored on. Per
management, preservation resources have not been able to adequately address the growth in
holdings needing preservation action. As a result, backlogs have grown and NARA is not
projected to meet its long range performance target for FY 2016. Preserving and providing
access to records is a fundamental element of NARA’s duties to the country, and NARA cannot
provide access to records unless it can preserve them for as long as needed. The backlog of
records needing preservation action continues to grow. NARA is challenged to address this
backlog and future preservation needs, including the data integrity of electronic records. The
challenge of ensuring NARA facilities meet environmental standards for preserving records (see
OIG Challenge #5) also plays a critical role in the preservation of Federal records.

7.     Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right
equipment and systems to accomplish NARA’s mission. Complex and high-dollar contracts
require multiple program managers, often with varying types of expertise. NARA is challenged
with planning projects, developing adequately defined requirements, analyzing and testing to

SEMIANNUAL REPORT TO CONGRESS                                                               Page 26
October 1, 2011 to March 31, 2012
TOP TEN MANAGEMENT CHALLENGES

support acquisition and deployment of the systems, and providing oversight to ensure effective
or efficient results within costs. Currently, IT systems are not always developed in accordance
with established NARA guidelines. These projects must be better managed and tracked to ensure
cost, schedule, and performance goals are met.

As an example, GAO reported NARA did not document the results of briefings to its senior
management oversight group during the development of NARA’s largest IT project, the ERA
program. There is little evidence the group identified or took appropriate corrective actions, or
ensured such actions were taken and tracked to closure. Without adequate oversight evaluating
project progress, including documenting feedback and action items from senior management,
NARA will not be able to ensure projects are implemented at acceptable cost and within
reasonable time frames. GAO also reports NARA has been inconsistent in its use of earned
value management (EVM), a project management approach providing objective reports of
project status and early warning signs of cost and schedule overruns. Inconsistent use of key
project management disciplines like EVM limits NARA’s ability to effectively manage projects
and accurately report on their progress.

8.     Physical and Holdings Security
The Archivist has identified security of collections as a material weakness under the FMFIA
reporting process. Document and artifact theft is not a theoretical threat; it is a reality NARA
has been subjected to time and time again. NARA must maintain adequate levels of security to
ensure the safety and integrity of persons and holdings within our facilities. This is especially
critical in light of the security realities facing this nation and the risk our holdings may be
pilfered, defaced, or destroyed by fire or other man-made and natural disasters. Not only do
NARA’s holdings have immense historical and financial value, but we hold troves of national
security information as well. Developments such as the creation of the Holdings Protection
Team and implementation of stricter access controls are welcome additions to NARA’s
security posture and should be commended. However, NARA must continually strive to
improve in this area.

9.     Contract Management and Administration
The GAO has identified Commercial Services Management (CSM) as a government-wide
initiative. The CSM initiative includes enhancing the acquisition workforce, increasing
competition, improving contract administration skills, improving the quality of acquisition
management reviews, and strengthening contractor ethics requirements. Effective contract
management is essential to obtaining the right goods and services at a competitive price to
accomplish NARA’s mission. NARA is challenged to continue strengthening the acquisition
workforce and to improve the management and oversight of Federal contractors. NARA is also
challenged with reviewing contract methods, to ensure a variety of procurement techniques are
properly used in accordance with laws, regulations and best practices.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 27
October 1, 2011 to March 31, 2012
TOP TEN MANAGEMENT CHALLENGES

10.    Strengthening Human Capital
The GAO has identified human capital as a government-wide high risk, explaining it is critical to
ensure agencies have the talent and skill mix they need to address their current and emerging
human capital challenges. NARA's 2011 results to the Employee Viewpoint Survey (EVS) are
largely consistent with the results from previous years, where NARA did not score particularly
well. Importantly, NARA continues to lag behind the rest of the Federal government in overall
employee satisfaction.

However, NARA recognizes work is needed to improve. NARA is completing a major
reorganization. One of the first initiatives was realigning relevant functions into a Human
Capital Office reporting directly to the Archivist. The Human Capital Office's top priority will be
taking a comprehensive and integrated approach to human capital management throughout the
agency. This approach is designed to include a renewed commitment to diversity, a focus on
continuous learning, and an emphasis on addressing the needs identified in the Employee
Viewpoint Survey. The Human Capital Office will also be charged with developing systems and
programs for encouraging and rewarding leadership, service and excellence at all levels.
NARA’s challenge is to adequately address these issues to change the current situation and
effectively recruit, retain, and train the employees needed to achieve its mission.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 28
October 1, 2011 to March 31, 2012
REPORTING REQUIREMENTS

MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS 

          AMENDED, AND OTHER LAWS 

REQUIREMENT            SUBJECT                                                    PAGE(s)

Section 4(a)(2)        Review of legislation and regulations                      7, 9

Section 5(a)(1)        Significant problems, abuses, and deficiencies             2 – 4, 10 – 16,
                                                                                  18 – 21

Section 5(a)(2)        Significant recommendations for corrective action          2 – 4, 10 – 16

Section 5(a)(3)        Prior significant recommendations unimplemented            33

Section 5(a)(4)        Summary of prosecutorial referrals                         31

Section 5(a)(5)        Information or assistance refused                          33

Section 5(a)(6)        List of reports issued                                     32

Section 5(a)(7)        Summaries of significant reports                           2 – 4, 10 – 16

Section 5(a)(8)        Audit Reports—Questioned costs                             32

Section 5(a)(9)        Audits Reports—Funds put to better use                     33

Section 5(a)(10)       Prior audit reports unresolved                             33

Section 5(a)(11)       Significant revised management decisions                   33

Section 5(a)(12)       Significant revised management decisions                   33
                       with which the OIG disagreed

P.L. 110-181           Annex of completed contract audit reports                  29

P.L. 111-203           Reporting on OIG peer review                               8

            ANNEX ON COMPLETED CONTRACT AUDIT REPORTS
Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
information on completed contract audit reports containing significant audit findings be included
as an annex to this report. While the OIG audited the ERA and other contracts during this
period, they were generally program audits as opposed to contract audits.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 29
October 1, 2011 to March 31, 2012
REPORTING REQUIREMENTS

STATISTICAL SUMMARY OF INVESTIGATIONS


Investigative Workload
        Complaints received this reporting period                                          48
        Investigations pending at beginning of reporting period                            21
        Investigations opened this reporting period                                        17
        Investigations closed this reporting period                                        14
        Investigations carried forward this reporting period                               24
Categories of Closed Investigations
        Fraud                                                                               5
        Conflict of Interest                                                                0
        Contracting Irregularities                                                          0
        Misconduct                                                                          1
        Larceny (theft)                                                                     2
        Other                                                                               6
Investigative Results
        Cases referred – accepted for prosecution                                           2
        Cases referred – declined for prosecution                                           1
        Cases referred – pending prosecution decision                                       4
        Arrest                                                                              1
        Indictments and informations                                                        0
        Convictions                                                                         3
        Fines, restitutions, judgments, and other civil and administrative recoveries   $33,968.92
        NARA holdings recovered                                                           9,389
Administrative Remedies
        Employee(s) terminated                                                              0
        Employee(s) resigned in lieu of termination                                         1
        Employee(s) suspended                                                               0
        Employee(s) given letter of reprimand or warnings/counseled                         0
        Employee(s) taking a reduction in grade in lieu of administrative action            0
        Contractor (s) removed                                                              1

        Individual(s) barred from NARA facilities                                           0


SEMIANNUAL REPORT TO CONGRESS                                                              Page 30
October 1, 2011 to March 31, 2012
REPORTING REQUIREMENTS

                       SUMMARY OF PROSECUTORIAL REFERRALS
                                       Requirement 5(a)(4)
Accepted for Prosecution

Theft of Personal Credit Card
A NARA employee’s credit card was stolen and used illegally. The OI worked with local law
enforcement and two subjects were eventually arrested. Local authorities accepted the case for
prosecution and charged one subject with 28 counts of theft. The second subject is cooperating
with the investigation.

Theft of Funds
A NARA employee stole money from an admissions cash register at a Presidential Library. The
employee admitted to the theft, and was subsequently arrested by local authorities. The county
prosecutor’s office accepted the case and adjudication is pending.

Declined for Prosecution

Theft of Personal Credit Card
A NARA employee’s credit card was stolen and used illegally. The OI worked with local law
enforcement and two subjects were eventually arrested. This investigation was declined for
Federal prosecution.

Pending Prosecutorial Determination

Improper Disposition of NARA Property
A non-profit organization participating in the General Services Administration (GSA) Computers
for Learning program mishandled excess NARA IT equipment. The joint investigation with the
GSA OIG was closed pending a prosecutorial determination by the supporting USAO.

Veteran Benefit Fraud
The OI closed a joint veteran benefit fraud investigation with the VA OIG. VA OIG has
completed the investigation and a prosecutorial determination from the supporting USAO is
pending.

As part of another ongoing joint investigation with the VA OIG, a former NARA employee
admitted using NARA resources to falsify a Bronze Star and a Purple Heart certificate. The
subject admitted he submitted falsified documents to receive VA benefits. A prosecutorial
decision from the supporting USAO is pending.

Stolen Valor
An individual misrepresented his service record and fabricated a NARA memo. This joint VA
OIG investigation is also pending a prosecutorial determination.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 31
October 1, 2011 to March 31, 2012
        REPORTING REQUIREMENTS

                                        LIST OF REPORTS ISSUED
                                               Requirement 5(a)(6)
Report      Title                                    Date         Questioned      Unsupported   Funds Put to
No.                                                               Costs           Costs         Better Use
12-02       Audit of the management of Records at
            the Washington National Records          01/03/2012       0                0             0
            Center (Report #1)
12-03       Cotton & Company’s NARA FY 2011
            Financial Statements Independent         12/15/2011       0                0             0
            Audit Report
12-04       Inadequate Contingency Planning
            Continues to be a Significant Risk for   01/30/2012       0                0             0
            the ERA System
12-05       Audit of the Management of Records
            at the Washington National Records       03/27/2012       0                0          $50,0000
            Center (Report #2)
12-07       Audit of NARA’s Compliance with the
            Improper Payment Elimination and         02/23/2012       0                0             0
            Recovery Act of 2010
12-08       NARA’s Reliance on Legacy Systems
            to Meet Electronic Records Mission       03/30/2012       0                0         $9,000,000
            Needs

                           AUDIT REPORTS WITH QUESTIONED COSTS
                                               Requirement 5(a)(8)

                                                      Number of
                                                                             DOLLAR VALUE
        Category                                                          Questioned       Unsupported
                                                       Reports
                                                                            Costs             Costs

        A. For which no management decision
                                                            1             $3,970,827        $3,970,827
           has been made by the commencement
           of the reporting period
        B. Which were issued during the
                                                            0                $0                 $0
           reporting period
           Subtotals (A + B)                                1             $3,970,827        $3,970,827
        C. For which a management decision has
                                                            0                $0                 $0
           been made during the reporting period
           (i) dollar value of disallowed cost              0                $0                 $0
           (ii) dollar value of costs not
                                                            0                $0                 $0
           disallowed
        D. For which no management decision
           has been made by the end of the                  1             $3,970,827        $3,970,827
           reporting period
        E. For which no management decision
                                                            1             $3,970,827        $3,970,827
           was made within 6 months


        SEMIANNUAL REPORT TO CONGRESS                                                            Page 32
        October 1, 2011 to March 31, 2012
REPORTING REQUIREMENTS

             AUDIT REPORTS WITH RECOMMENDATIONS THAT

                     FUNDS BE PUT TO BETTER USE

                                       Requirement 5(a)(9)



             CATEGORY                                NUMBER                     DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                        1                       $434,589
   the reporting period
B. Which were issued during the reporting
                                                           2                      $9,050,000
   period
   Subtotals (A + B)                                       3                      $9,484,589
C. For which a management decision has
                                                           1                       $434,589
   been made during the reporting period
   (i) dollar value of recommendations
                                                           0                            $0
        that were agreed to by management
        Based on proposed management
                                                           0                            $0
        action
        Based on proposed legislative
                                                           0                            $0
        action
   (ii) dollar value of recommendations
        that were not agreed to by                         1                       $434,589
        management
D. For which no management decision has
   been made by the end of the reporting                   2                      $9,050,000
   period
E. For which no management decision was
   made within 6 months of issuance                        0                            $0




                             OTHER REQUIRED REPORTS


REQUIREMENT                                 CATEGORY                               SUMMARY
5(a)(3)                   Prior significant recommendations unimplemented        None
5(a)(5)                   Information or assistance refused                      None
5(a)(10)                  Prior audit reports unresolved                         None
5(a)(11)                  Significant revised management decisions               None
5(a)(12)                  Significant revised management decisions with which    None
                          the OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                                  Page 33
October 1, 2011 to March 31, 2012
